                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Improvements Needed in
                     EPA Efforts to Address
                     Methane Emissions From
                     Natural Gas Distribution
                     Pipelines
                     Report No. 14-P-0324               July 25, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with climate change. For details on our other reports on climate
 change, go to http://www.epa.gov/oig/climatechange.


Report Contributors:                                 Rick Beusse              Erica Hauck
                                                     Kevin Good               Richard Jones

Abbreviations

CAA            Clean Air Act
CO2e           Carbon dioxide equivalent
EDF            Environmental Defense Fund
EF             Emission factor
EPA            U.S. Environmental Protection Agency
GHG            Greenhouse gas
GHGRP          Greenhouse Gas Reporting Program
GRI            Gas Research Institute
GTI            Gas Technology Institute
LDC            Local distribution company
MMT            Million metric tons
NESHAP         National Emission Standards for Hazardous Air Pollutants
NSPS           New Source Performance Standards
OAR            Office of Air and Radiation
OIG            Office of Inspector General
PHMSA          Pipeline and Hazardous Materials Safety Administration
PSD            Prevention of Significant Deterioration
PUC            Public utility commission
SCF            Standard cubic feet
TPY            Tons per year

Cover photo: Damaged natural gas distribution pipeline. (U.S. Department of Transportation photo)


 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                   14-P-0324
                                                                                                            July 25, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Improvements Needed in EPA Efforts
We conducted this evaluation        to Address Methane Emissions From
to determine what actions the
U.S. Environmental Protection
                                    Natural Gas Distribution Pipelines
Agency (EPA) has taken to
reduce methane emissions             What We Found
from leaking pipelines in the       The EPA has placed little focus and              Methane emissions impact climate
natural gas distribution sector.    attention on reducing methane emissions          change through leaks in natural
                                    from pipelines in the natural gas                gas distribution pipelines, and also
Methane is a potent                 distribution sector. In 2012, the EPA stated     have economic impacts. We
greenhouse gas with a global        its intent to continue to evaluate the           estimate that more than
warming potential 25 times that     appropriateness of regulating methane.           $192 million in natural gas was lost
of carbon dioxide. In June                                                           in 2011 due to such leaks, a cost
                                    The 2013 Climate Action Plan calls for the
2013, President Obama issued                                                         that is borne by consumers.
                                    EPA, in conjunction with other federal
the Climate Action Plan, which      agencies, to develop a comprehensive
states that “curbing emissions      interagency strategy to address methane emissions. The EPA does not currently
of methane is critical to our       regulate methane emissions from the distribution sector and has not partnered
overall effort to address global    with the Pipeline and Hazardous Materials Safety Administration, which regulates
climate change.” In 2012, the       pipeline safety, to control methane leaks. The EPA has a voluntary program to
EPA reported that methane           address methane leaks—Natural Gas STAR—but its efforts through this program
leaks from pipelines in the         have resulted in limited reductions of methane emissions from distribution
natural gas distribution sector     pipelines. This is due largely to financial and policy barriers, including
accounted for more than             disincentives for distribution companies to repair nonhazardous leaks.
13 million metric tons of carbon
dioxide equivalent emissions.       The agency needs to address additional issues to better assess progress from
These leaks are comprised of        the voluntary program and determine if future regulations are warranted. The
natural gas product, which is       EPA needs to set goals and track its progress in reducing emissions from
almost 100 percent methane,         distribution pipelines through its voluntary program. Also, the EPA needs to
and account for more than           evaluate data from ongoing external studies to determine their usefulness for
10 percent of total methane         validating or updating its distribution pipeline emission factors. The emission
emissions from natural gas          factors that the EPA uses are based on a 1996 study, which has a high level of
systems.                            uncertainty. Two non-EPA groups are conducting studies that may be useful to
                                    the EPA. However, the EPA’s involvement in the design or protocols of these
This report addresses the           studies has been limited.
following EPA goal or
cross-agency strategy:               Recommendations and Planned Corrective Actions
  Addressing climate change        We recommend that the EPA (1) work with the Pipeline and Hazardous Materials
   and improving air quality.       Safety Administration to address methane leaks from a combined environmental
                                    and safety standpoint, (2) develop a strategy to address the financial and policy
                                    barriers that hinder reductions from the distribution sector, (3) establish
For further information,            performance goals, (4) track distribution sector emissions and use that data to
contact our public affairs office   help determine if future regulation would be appropriate, and (5) assess whether
at (202) 566-2391.                  data from ongoing studies should be used to update distribution sector emission
The full report is at:
                                    factors. The agency agreed with recommendations 1 and 2 and provided
www.epa.gov/oig/reports/2014/       corrective action plans that meet the intent of the recommendations. The agency
20140725-14-P-0324.pdf              partially agreed with recommendations 3, 4 and 5 and these three
                                    recommendations are considered unresolved.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460

                                                                                     THE INSPECTOR GENERAL




                                             July 25, 2014

MEMORANDUM

SUBJECT:       Improvements Needed in EPA Efforts to Address Methane Emissions From
               Natural Gas Distribution Pipelines
               Report No. 14-P-0324

FROM:          Arthur A. Elkins Jr.

TO:            Janet McCabe, Acting Assistant Administrator
               Office of Air and Radiation

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA offices having primary responsibility over the issues evaluated in this report are the Office of
Air and Radiation’s Office of Atmospheric Programs and Office of Air Quality Planning and Standards.

Action Required

Recommendations 1 and 2 are resolved; therefore no further response is needed for these
recommendations. In accordance with EPA Manual 2750, for recommendations 3, 4 and 5, for which the
agency only partially concurred, you are required to provide a written response to this report within
60 calendar days. You should include planned corrective actions and completion dates for these
unresolved recommendations. Your complete response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be released
to the public; if your response contains such data, you should identify the data for redaction or removal
along with corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
Improvements Needed in EPA Efforts to Address                                                                             14-P-0324
Methane Emissions From Natural Gas Distribution Pipelines


                                  Table of Contents

 Chapters
   1    Introduction ......................................................................................................     1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Scope and Methodology ............................................................................              7

   2    EPA Does Not Regulate Methane Emissions From Distribution
        Pipelines and Voluntary Efforts Have Achieved Limited Reductions ...........                                             9

                Methane Emissions From Natural Gas Distribution Pipelines
                    Not Currently Regulated by EPA ........................................................                     9
                No Local Distribution Companies Have Obtained
                    GHG Permits From EPA ......................................................................                 10
                EPA Has Not Partnered With PHMSA to Control Methane Leaks ..............                                        11
                EPA’s Voluntary Program Has Achieved Limited Emission
                    Reductions From Natural Gas Distribution Pipelines ...........................                              12
                Financial and Policy Barriers Hinder Methane Emission
                    Reductions From the Distribution Sector .............................................                       13
                Conclusions ...............................................................................................     14
                Recommendations .....................................................................................           14
                Agency Comments and OIG Evaluation .....................................................                        15

   3    EPA’s Methane Emissions Data for Natural Gas Distribution
        Pipelines Need to Be Improved .......................................................................                   17

                EPA Uses Emission Factors to Estimate Methane Emissions ....................                                    17
                Validity of EPA’s Emission Factors for Distribution Pipelines Uncertain .....                                   18
                EPA Has Not Comprehensively Re-Evaluated Its
                     Natural Gas Distribution Pipeline Emission Factors.............................                            22
                Conclusions ...............................................................................................     24
                Recommendation .......................................................................................          24
                Agency Comments and OIG Evaluation .....................................................                        24

   Status of Recommendations and Potential Monetary Benefits .............................                                      26



 Appendices
   A    Agency Response to Draft Report...................................................................                      27

   B    Distribution .......................................................................................................    32
                                           Chapter 1
                                            Introduction
Purpose
                 We conducted this evaluation to determine what actions the U.S. Environmental
                 Protection Agency (EPA) has taken to reduce methane emissions from leaking
                 pipelines in the natural gas distribution sector.

Background
                 Methane is a potent greenhouse gas (GHG). It has a global warming potential
                 25 times that of carbon dioxide. In addition to contributing to global climate
                 change, methane emissions also worsen ground-level ozone problems and can kill
                 trees and other vegetation. Emissions from leaks in natural gas distribution
                 pipelines are comprised almost entirely of methane.

                 In June 2013, President Obama issued the Climate Action Plan, a broad-based
                 plan to cut GHG pollution that causes climate change and affects public health.
                 Among other things, the Climate Action Plan emphasizes that:

                          Curbing emissions of methane is critical to our overall effort to
                          address global climate change. Methane currently accounts for
                          roughly 9 percent of domestic greenhouse gas emissions and has a
                          global warming potential that is more than 20 times1 greater than
                          carbon dioxide.

                 The Climate Action Plan calls for the EPA, in conjunction with several other
                 agencies, to develop a comprehensive interagency methane strategy. This strategy
                 (hereafter referred to as the 2014 interagency methane strategy) was issued in
                 March 2014.2 The strategy focuses on cutting methane emissions primarily from
                 landfills, coal mines, agriculture, and the oil and natural gas industry. It calls for
                 the EPA to:

                         Develop a series of white papers on significant sources of methane
                          emissions in the oil and natural gas industry, and solicit input from
                          independent experts.
                         Based on information from the white papers, determine what, if any,
                          regulatory authorities the agency will apply to selected emission sources in
                          the oil and natural gas industry.

1
  In November 2013, the EPA amended its global warming potential for methane from 21 to 25 times that of carbon
dioxide. The EPA made this change to align with the global warming potential for methane that was included in the
Intergovernmental Panel on Climate Change’s Fourth Assessment Report, which was issued in 2007.
2
  Climate Action Plan: Strategy to Reduce Methane Emissions, March 2014.


14-P-0324                                                                                                       1
                              Bolster its Natural Gas STAR program—a voluntary program to reduce
                               methane emissions from the natural gas industry—by eliciting more robust
                               industry commitments and enhancing transparency and accountability.
                              Continue to enhance its inventory of GHG emissions, particularly for the
                               natural gas industry.

                  Our evaluation focused on methane emissions from pipelines in the distribution
                  sector of the natural gas industry. This includes distribution mains3 and service
                  lines that transmit natural gas from the city gate4 to the end customer. Figure 1
                  shows how natural gas moves from production wells through transmission lines to
                  the city gate and, ultimately, to residential and commercial customers. By the time
                  natural gas reaches the distribution sector, almost all pollutants and impurities
                  have been removed. At this point it is almost 100-percent methane.
                  Figure 1: Natural gas industry, from production through distribution




                  Source: The EPA.
                  a
                      Service lines are the lines from the distribution mains to the residential, commercial and industrial customers.




3
  A main is a major pipeline conveying gas to smaller pipes, known as service lines or services, for distribution to
residential, commercial and industrial consumers.
4
  A city gate is the delivery point where the natural gas is transferred from a transmission pipeline to the local gas
utility (called the local distribution company).


14-P-0324                                                                                                                                2
            Methane Emissions From Distribution Pipelines

            In 2012, the EPA reported that the total methane emissions from natural gas systems
            were 129.9 million metric tons (MMT) of carbon dioxide equivalent (CO2e)
            emissions. Of this, more than 13 MMT CO2e were attributed to emissions from
            distribution pipelines. This represents more than 10 percent of total methane
            emissions from natural gas systems.

            Emissions from distribution pipelines occur due to leaks. Leaks are most likely to
            occur from older pipelines made of cast iron and unprotected steel. These leaks
            are caused by disturbances resulting from earth movement, the breakdown of
            joints, and corrosion of unprotected steel pipelines; and from the natural process
            of “graphitization” of iron pipelines. Graphitization is the process of iron
            degrading over time to softer elements. This process makes iron pipelines more
            prone to cracking. Leaks are much less likely to occur from plastic and protected
            steel pipelines.

            In 2012, there were more than 1.2 million miles of distribution mains in the
            United States. Of this, more than 32,000 miles of mains were cast iron or wrought
            iron, and more than 61,000 miles were unprotected steel.

            The amount of cast and wrought iron, and unprotected steel, pipeline varies
            substantially by state. For example, in 2012, New Jersey had at least 5,000 miles
            of cast and wrought iron mains while 16 other states had none. Table 1 shows the
            miles of cast and wrought iron pipelines (specifically, distribution mains) in the
            10 states with the highest levels of these pipelines. These 10 states accounted for
            about 82 percent of the cast and wrought iron mains in 2012.

            Table 1: Ten states with highest miles of cast and wrought iron natural gas
            distribution mains, 2012
                                                                                     Miles of
                                                          Percentage of        distribution mains
                                       Miles of         distribution mains     as a percentage of
                      State      distribution mains           in state          nationwide total
             New Jersey                5,044                   15%                   15.6%
             New York                  4,417                    9%                   13.6%
             Massachusetts             3,792                   18%                   11.7%
             Pennsylvania              3,221                    7%                    9.9%
             Michigan                  3,101                    5%                    9.6%
             Illinois                  1,744                    3%                    5.4%
             Connecticut               1,467                   19%                    4.5%
             Maryland                  1,399                   10%                    4.3%
             Alabama                   1,383                    5%                    4.3%
             Missouri                  1,113                    4%                    3.4%
             Total                    26,681                                         82.3%
            Source: Office of Inspector General (OIG) analysis of Pipeline and Hazardous Materials
            Safety Administration (PHMSA) data.




14-P-0324                                                                                            3
                   In 2012, the miles of distribution mains made of unprotected steel ranged from a
                   high of 9,044 miles in Ohio to zero miles in five states. Table 2 shows the miles
                   of unprotected steel pipelines (specifically, distribution mains) in the 10 states
                   with highest levels of unprotected steel pipelines. As shown in table 2, these
                   10 states accounted for about 77 percent of the unprotected steel mains in 2012.

                   Table 2: Ten states with highest miles of unprotected steel natural gas distribution
                   mains, 2012
                                                                                               Miles of
                                                                   Percentage of         distribution mains
                                                Miles of         distribution mains      as a percentage of
                           State          distribution mains           in state           nationwide total
                    Ohio                        9,044                   16%                    14.7%
                    Pennsylvania                8,086                   17%                    13.2%
                    New York                    6,900                   14%                    11.3%
                    Texas                       6,100                    6%                     9.9%
                    California                  5,269                    5%                     8.6%
                    Kansas                      3,487                   16%                     5.7%
                    West Virginia               2,963                   28%                     4.8%
                    Oklahoma                    1,857                    7%                     3.0%
                    Massachusetts               1,780                    8%                     2.9%
                    New Jersey                  1,708                    5%                     2.8%
                    Total                      47,194                                          76.9%
                   Source: OIG analysis of PHMSA data.


                   As shown in tables 1 and 2, four states are among the 10 highest for both miles
                   of cast and wrought iron as well as unprotected steel pipelines (Massachusetts,
                   New Jersey, New York and Pennsylvania).

                   Aging Infrastructure Associated With Large Number of
                   Methane Leaks From Urban Pipelines

                   A 2013 study identified more than 3,000 methane leaks believed to be from
                   distribution pipelines in the city of Boston.5 In the study, researchers used mobile
                   detection equipment to identify leaks, determine the concentration of the leaks,
                   and map the leaks according to a specific location. The study concluded that the
                   leaks were primarily from cast iron distribution mains, some of which were more
                   than 100 years old. While the study was able to identify leaks and measure their
                   concentration at a certain point in time, it did not measure the total amount of
                   methane that was being emitted from the leaks. Therefore, the actual amount of
                   methane released from these leaks is unknown. Figure 2 shows the leaks that were
                   detected by the researchers in Boston, along with their corresponding
                   concentrations.




5
    "Mapping Urban Pipeline Leaks: Methane Leaks Across Boston," Environmental Pollution, 173 (2013) 1-4.


14-P-0324                                                                                                     4
                   Figure 2: Methane leaks in the city of Boston, shown as concentrations
                   (in parts per million)




                   Source: Reprinted from Environmental Pollution, Vol 173, Nathan G. Phillips et al.,
                   Mapping urban pipeline leaks: Methane leaks across Boston, 1-4, Copyright (2013),
                   with permission from Elsevier.

                   Note: Methane leaks (3356 yellow spikes > 2.5 ppm) mapped on Boston’s 785 road
                   miles (red) surveyed in this study.


                   In a second study published in 2014 and conducted in Washington, D.C.,
                   researchers found results similar to the Boston study.6 They identified more than
                   5,800 methane leaks in Washington. Like Boston, the researchers associated the
                   high level of leaks in Washington with an aging cast iron pipeline infrastructure.
                   Figure 3 shows detected leaks in a section of Washington, along with their
                   corresponding concentrations.




6
    "Natural Gas Pipelines Leaks Across Washington, D.C.," Environmental Science & Technology, 48(3), 2051-2058.


14-P-0324                                                                                                     5
                    Figure 3: Methane leaks in Washington, D.C., shown as concentrations
                    (in parts per million)




                    Source: Reprinted with permission from Robert B. Jackson, et al., Natural Gas Pipeline
                    Leaks Across Washington, DC, Environmental Science and Technology, 48(3), 2051–2058,
                    Copyright (2014) American Chemical Society.

                    Note: A close-up of leaks near the U.S. Capitol Building showing high leak densities east of
                    the building but few leaks over the National Mall, where very few natural gas pipelines exist.

                    EPA Authority to Regulate Methane

                    The Supreme Court ruled in Massachusetts v. EPA (2007)7 that GHGs are pollutants
                    covered by the Clean Air Act (CAA), and that the EPA has the authority to regulate
                    GHG emissions from new motor vehicles under Section 202(a)(1) of the Act. The
                    court also instructed the EPA to determine, in accordance with provisions in the Act,
                    whether emissions of GHGs from new motor vehicles cause or contribute to air
                    pollution, which may reasonably be anticipated to endanger public health or welfare,
                    or provide a reasonable explanation why it could not reach a decision.

                    In 2009, the EPA issued the Endangerment and Cause or Contribute Findings for
                    Greenhouse Gases under Section 202(a) of the CAA (often referred to as the
                    Endangerment Finding). Specifically, the EPA Administrator determined that:

                            Six GHGs,8 including methane, taken in combination, endanger both the
                             public health and the public welfare of current and future generations.
                            GHGs from new motor vehicles and new motor vehicle engines contribute
                             to the GHG air pollution that endangers public health and welfare under
                             CAA Section 202(a).

7
    549 U.S. 497 (2007).
8
    Carbon dioxide, methane, nitrous oxide, hydrofluorocarbons, perfluorocarbons and sulfur hexafluoride.




14-P-0324                                                                                                            6
                 After the agency began regulating GHGs from motor vehicles, it issued proposed
                 regulations of GHG emissions from the largest stationary sources.9

                 EPA’s Natural Gas STAR is a Voluntary Program to Reduce
                 Methane Emissions

                 The EPA works with industry partners to voluntarily reduce methane emissions
                 from all sectors of the natural gas industry, from production through distribution,
                 through its Natural Gas STAR program. This program, established in 1993,
                 provides a framework to encourage partner companies to implement methane
                 emission-reducing technologies and practices. It also calls for them to document
                 their voluntary emission-reduction activities and report emission reductions to the
                 EPA. The EPA tracks these reported emission reductions to determine the
                 effectiveness of the voluntary efforts under the Natural Gas STAR program.

                 Federal Regulations for Safety of Natural Gas Distribution Pipelines

                 The Department of Transportation’s PHMSA regulates natural gas distribution
                 pipelines. The emphasis of PHMSA’s regulations in this sector is almost
                 exclusively on safety and the prevention of lost life and property. PHMSA
                 regulations require distribution pipeline operators to conduct periodic leakage
                 surveys and promptly repair any hazardous (i.e., potentially explosive) leaks. In
                 December 2009, PHMSA amended its pipeline safety regulations to require
                 distribution sector operators to develop and implement integrity management
                 programs. Such programs were aimed at improving leak management and damage
                 prevention.

                 Responsible Offices

                 The EPA offices having primary responsibility over the issues discussed in this
                 report are the Office of Air and Radiation’s (OAR’s) Office of Atmospheric
                 Programs and Office of Air Quality Planning and Standards. The Office of
                 Atmospheric Programs is responsible for efforts under the voluntary Natural Gas
                 STAR program, while the Office of Air Quality Planning and Standards is
                 responsible for developing regulations for air pollutants.

Scope and Methodology
                 We conducted our review from June 2013 through April 2014. We conducted this
                 performance audit in accordance with generally accepted government auditing
                 standards. Those standards require that we obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our


9
 A stationary source is a place or object from which pollutants are released that do not result from an internal
combustion engine for transportation purposes, a nonroad engine, or a nonroad vehicle. Stationary sources include
power plants, gas stations, incinerators, houses, pipelines, etc.


14-P-0324                                                                                                           7
            objective. We believe the evidence obtained provides a reasonable basis for our
            findings and conclusions based on our objective.

            To determine what actions the EPA has taken to reduce methane emissions from
            leaking pipelines in the distribution sector, we reviewed relevant laws and
            regulations, including the:

                   1990 CAA, as amended.
                   Oil and Natural Gas Sector: New Source Performance Standards (NSPS) and
                    National Emission Standards for Hazardous Air Pollutants (NESHAP).
                   Prevention of Significant Deterioration and Title V Greenhouse Gas
                    Tailoring Rule.
                   Mandatory Reporting of Greenhouse Gases Rule Subpart W -
                    Petroleum and Natural Gas Systems.
                   Transportation of Natural and Other Gas by Pipeline: Minimum Federal
                    Safety Standards.

            We also reviewed data and other documents obtained from the EPA and external
            parties, including:

                   Information on the EPA’s Natural Gas STAR program and practices to
                    reduce methane leaks.
                   Greenhouse Gas Reporting Program (GHGRP) data and documentation.
                   Inventory of U.S. Greenhouse Gas Emissions and Sinks (GHG Inventory)
                    data and documentation.
                   Numerous external reports and studies on methane leaks and emissions.

            We interviewed EPA managers and staff in OAR’s Office of Atmospheric
            Programs and Office of Air Quality Planning and Standards; the Office of
            Research and Development; and the Office of General Counsel. We also
            interviewed representatives from the American Gas Association, BlueGreen
            Alliance, Conservation Law Foundation, Duke University, Environmental
            Defense Fund, the Gas Technology Institute, National Association of Regulatory
            Utility Commissioners, and Picarro.




14-P-0324                                                                                     8
                                              Chapter 2
         EPA Does Not Regulate Methane Emissions
      From Distribution Pipelines and Voluntary Efforts
            Have Achieved Limited Reductions
                  The EPA has not issued regulations to control methane emissions from distribution
                  pipelines, partnered with PHMSA to control such leaks, nor developed a strategy
                  to address barriers that inhibit the mitigation of methane leaks in the natural gas
                  distribution sector. While the Natural Gas STAR program has been successful in
                  reducing methane from other segments of the industry, this voluntary program has
                  achieved limited reductions from leaking distribution pipelines, due largely to
                  financial and policy barriers. For example, LDCs generally have had to bear the
                  upfront capital expenditures to repair leaks, while the savings from these repairs
                  have accrued to the consumer, thus creating a disincentive for LDCs to repair
                  nonhazardous leaks. While the natural gas distribution sector is not the largest
                  emitter of methane, it is one of the industry sectors included in the 2014
                  interagency methane strategy. The EPA should partner with PHMSA to reduce
                  methane emissions from both a safety and environmental perspective, and develop
                  a strategy to address financial and policy barriers. The EPA also needs to set goals
                  and track its progress in reducing emissions from distribution pipelines through
                  voluntary approaches to determine if future regulation would be appropriate. In
                  addition to contributing to global climate change, methane leaks from distribution
                  pipelines represent more than $192 million in lost natural gas product annually.

Methane Emissions From Natural Gas Distribution Pipelines
Not Currently Regulated by EPA
                  The EPA does not currently regulate methane emissions from distribution pipelines
                  under the CAA. The EPA does regulate other parts of the natural gas industry under
                  two provisions of the CAA: Section 111 (NSPS), and Section 112 (NESHAP).
                  EPA’s NSPS for the natural gas industry limits emissions of criteria pollutants10
                  and volatile organic compounds.11 EPA’s NESHAP limits emissions of air toxics.12



10
   Criteria pollutants include six common pollutants: ozone, particulate matter, carbon monoxide, nitrogen dioxide,
sulfur dioxide and lead. These are called criteria pollutants because EPA regulates them by first issuing “air quality
criteria,” which reflect the latest scientific knowledge about the pollutants’ effects on public health or welfare, then
sets standards for permissible levels of the pollutants in the ambient air to protect against such adverse effects.
11
   Volatile organic compounds are emitted as gases from certain solids or liquids. Volatile organic compounds
include a variety of chemicals, some of which may have short- and long-term adverse health effects.
12
   Air toxics, also known as hazardous air pollutants, are pollutants that are known or suspected to cause cancer or
other serious health effects, such as reproductive effects or birth defects, or adverse environmental effects. There are
currently 187 air toxics listed under CAA Section 112(b).




14-P-0324                                                                                                              9
                 However, neither the NSPS nor NESHAP address methane emissions directly.13
                 Since natural gas is almost pure methane by the time it reaches the distribution
                 sector, there are no criteria or toxic air pollutants to control. The result is that
                 methane emissions from the distribution sector are not addressed by the EPA’s
                 current emission limits for the natural gas industry.

                 When the EPA issued the revised NSPS and NESHAP for the natural gas industry
                 in 2012, it stated that it “intend[s] to continue to evaluate the appropriateness of
                 regulating methane with an eye toward taking additional steps if appropriate.” The
                 EPA has not made a decision about regulating methane. We estimate that more than
                 $192 million14 in natural gas was lost due to distribution pipeline leaks in 2011.

                 The 2014 interagency methane strategy states that the EPA will issue a series of
                 white papers on potentially significant sources of methane emissions in the oil and
                 natural gas sector during the spring of 2014, and solicit input from independent
                 experts. These white papers were issued in April 2014 and focused on methane
                 and volatile organic compounds emissions from hydraulically fractured oil wells,
                 liquids unloading, pneumatic devices, compressors, and leaks. In the fall of 2014,
                 the EPA is to determine what, if any, regulatory authorities the agency will use to
                 control emissions from these sources. None of the issued white papers address
                 methane emissions from distribution pipelines.

No Local Distribution Companies Have Obtained GHG Permits
From EPA
                 No local distribution companies (LDCs) have obtained GHG permits from the
                 EPA. In general, any facility with potential to emit 100,000 tons per year (tpy) or
                 more of GHG (measured on a CO2e basis) must obtain a CAA Title V operating
                 permit. Additionally, new facilities with the potential to emit 100,000 tpy or more
                 of GHGs (measured on a CO2e basis)—and greater than or equal to the applicable
                 major source threshold (i.e., 100 or 250 tpy, depending on the source category) on a
                 mass basis—must generally obtain a Prevention of Significant Deterioration (PSD)
                 pre-construction permit before it can commence construction. Also, existing
                 facilities that plan to undertake modifications that substantially increase their
                 potential to emit GHG’s may also be required to obtain a PSD permit for GHG
                 emissions before they can make the modifications.15


13
   While neither the NSPS nor NESHAP directly control or address methane emissions, these rules are expected to
achieve substantial methane emission reductions as a co-benefit of controlling volatile organic compounds
emissions. However, since the regulations do not cover the distribution sector, no methane emission reductions from
distribution pipelines are expected as a co-benefit.
14
   This figure is based on the EPA’s 2011 GHG Inventory distribution pipeline emissions estimate of 13 MMT CO2e
and the 2011 average city gate price of natural gas of $5.63 per thousand cubic feet (MMT CO 2e was converted to
thousand cubic feet of methane).
15
   EPA provides a thorough discussion of the various GHG permitting requirements in PSD and Title V Permitting
Guidance for Greenhouse Gases (March 2011), at http://www.epa.gov/nsr/ghgdocs/ghgpermittingguidance.pdf.




14-P-0324                                                                                                       10
                 Thirty-six LDCs reported more than 100,000 tpy of methane emissions to the EPA
                 in 2011. However, none of these companies has obtained a GHG permit. In our
                 view, this is likely due to the fact that methane emissions from distribution
                 pipelines are generally “fugitive” emissions resulting from leaks. Under current
                 EPA policy, fugitive emissions from these facilities are not counted toward the
                 thresholds for determining whether a source is subject to GHG permitting
                 provisions, except for major modifications at sources under PSD requirements per
                 the EPA’s 2013 permitting guidance that cites CAA Section 302(j) and relevant
                 regulatory provisions.16

EPA Has Not Partnered With PHMSA to Control Methane Leaks
                 Historically, PHMSA has regulated LDCs’ pipeline infrastructure with a public
                 safety focus rather than an environmental protection focus.17 PHMSA’s regulations
                 were not designed to mitigate the environmental impacts of leaks. PHMSA requires
                 LDCs to repair or replace leaking pipelines that:

                          . . . represent an existing or probable hazard to persons or property
                          and requires immediate repair or continuous action until the
                          conditions are no longer hazardous.

                 PHMSA regulations leave the repair of non-hazardous leaks to the discretion of the
                 LDC.

                 According to the Executive Director of BlueGreen Alliance,18 when LDCs discover
                 a leak, they may vent the leak to the atmosphere instead of repairing it if the leak is
                 not a safety hazard. An LDC may also vent a hazardous leak to reduce the safety
                 threat of the leak, thus reducing its explosive potential and downgrading its hazard
                 rating. If a state does not adopt initiatives to enforce the repair of persistent, non-
                 hazardous leaks, the LDC can potentially allow a non-hazardous leak to vent to the
                 atmosphere in perpetuity.

                 States vary in their regulations and initiatives to repair non-hazardous leaks. Some
                 states have been proactive in developing initiatives that go beyond PHMSA’s
                 requirements. According to information from the National Association of Pipeline
                 Safety Representatives and National Association of Regulatory Utility
                 Commissioners, in 2013 approximately half of the states had not adopted initiatives
                 that would prevent non-hazardous leaks from persisting in perpetuity. Additionally,
                 22 states (or specific utilities within the states) have adopted initiatives to replace
                 cast iron and/or unprotected steel pipelines.

16
   Counting GHG Fugitive Emissions in Permitting Applicability (December 12, 2013); EPA guidance document
addressing questions about GHG permitting at http://www.epa.gov/nsr/ghgqa.html.
17
   PHMSA has federal oversight of the natural gas distribution network; PHMSA’s focus is on safety and the
prevention of loss of life.
18
   The BlueGreen Alliance is an organization that represents 14 of the largest unions and environmental groups in
the United States.


14-P-0324                                                                                                           11
            The EPA has not partnered with PHMSA to address leaks from a combined safety
            and environmental standpoint. EPA staff told us that they do not have a formal
            partnership with PHMSA, and PHMSA last participated in an EPA Natural Gas
            STAR workshop in 2009. The lack of coordinated action between the EPA and
            PHMSA hinders an effective partnership where PHMSA’s technology and
            regulations could be used to produce additional environmental benefits. The EPA
            has the opportunity to partner with PHMSA in implementing the 2014
            interagency methane strategy.

EPA’s Voluntary Program Has Achieved Limited Emission Reductions
From Natural Gas Distribution Pipelines
            The EPA works with natural gas industry partners to voluntarily reduce their
            methane emissions through the Natural Gas STAR program. The emission reductions
            achieved by the Natural Gas STAR program for the distribution sector, as reported
            by partner companies, has been limited in comparison to other segments of the
            natural gas industry. In 2012, the Natural Gas STAR program achieved a total of
            66 billion cubic feet in methane emissions reductions from the natural gas industry.
            Reductions from the distribution sector accounted for only 1 percent of this. In
            comparison, reductions from the production sector accounted for 82 percent, and
            reductions from the transmission sector accounted for 15 percent. Further, since
            1993, the cumulative amount of methane emissions reduced from the distribution
            sector through 2012 was 45.4 billion cubic feet, compared to 255.9 billion cubic feet
            for the transmission sector. In addition, as of 2012, emissions from the production
            sector had been reduced by 819.4 billion cubic feet since 1990.

            The Natural Gas STAR program has identified several technologies or practices
            that LDCs can voluntarily adopt to reduce methane leaks in the distribution
            sector. These include:

                  Inserting flexible plastic liners inside existing cast iron and unprotected
                   steel pipeline. Plastic leaks less than cast iron and unprotected steel, and
                   its installation is less costly and disruptive than replacing existing pipe
                   with new pipeline.
                  Using composite wrap to repair defects—such as pits, dents, gouges and
                   external corrosion—to prevent leaks. Installation of composite wrap can
                   be performed on an operating pipeline without taking it out of service.
                  Using directed inspection and maintenance to find and fix significant leaks
                   based upon an inspection schedule. Through a directed inspection and
                   maintenance program, LDCs monitor and inspect components prone to leak
                   enough methane to make repairs cost effective. LDCs use special infrared
                   cameras to detect methane emissions from hundreds of components.

            The Natural Gas STAR program shares and publicizes these technologies and
            practices through its website, newsletters and technology transfer workshops in an


14-P-0324                                                                                         12
            effort to promote and increase their use among partner companies. However, the
            low level of emission reductions achieved to date from this sector suggests that
            the use of these technologies and practices is limited and could be expanded.

Financial and Policy Barriers Hinder Methane Emission Reductions
From the Distribution Sector
            The limited emission reductions achieved by the distribution sector are due in large
            part to the fact that LDCs have little financial incentive to reduce methane
            emissions from leaking pipelines that do not pose a potential safety hazard. LDCs
            typically do not own the gas that flows through their pipeline networks. LDCs are
            generally allowed to pass on to their customers the costs of gas that is “lost and
            unaccounted for” from the pipeline system, including gas lost to leaks. The benefits
            of repairing leaks (i.e., gas savings) are passed on to the consumer. Thus, there is a
            financial disincentive for LDCs to proactively locate and repair leaks. The cost of
            the product lost (i.e., natural gas) is easy for LDCs to recover while the costs to
            repair, replace or retrofit pipelines poses more of a cost recovery challenge.

            State public utility commissions (PUCs) regulate the rates and services of LDCs.
            Their policies can create barriers to reducing methane emissions from leaking
            pipelines. Repairing or replacing pipeline involves significant capital investments,
            and the LDC generally has to carry these costs until they can be recovered. Cost
            recovery is usually not permissible until after the filing of a rate case, a
            proceeding through which an LDC applies to the PUC for a rate increase. A rate
            case can create a “regulatory lag” in that the LDC is responsible for bearing the
            costs of pipeline replacement and repair until the rate increase takes effect and the
            LDC begins to recover its costs.

            Another barrier to replacing and repairing pipeline involves the traditional practice
            of charging customers for the amount of gas used based on a per-unit price (such as
            dollars per kilowatt hour). This practice promotes pipeline expansion rather than
            repair and replacement because expansion will increase the LDCs customer base,
            resulting in more gas sold and revenue earned. Conversely, investing in
            improvements to existing infrastructure will lead to increased gas rates, which will
            deter consumption and potentially result in lost revenue for the LDC.

            In recognition of these financial and policy barriers, some PUCs have taken steps to
            improve cost recovery mechanisms for their LDCs. PUCs have to balance goals—
            such as ensuring consumers receive safe and reliable service at reasonable rates—
            while allowing LDCs an opportunity to earn a fair rate of return. There are a
            number of financing mechanisms that allow LDCs to recover capital expenditures
            for fixing leak-prone pipelines on an annual basis. These mechanisms can decrease
            LDCs’ capital recovery times and diminish the disincentives to repair and replace
            leaking pipelines.




14-P-0324                                                                                     13
            The EPA does not have a strategy to address the financial and policy barriers that
            inhibit the mitigation of methane leaks in the natural gas distribution sector. The
            EPA’s Fiscal Year 2011–2015 Strategic Plan proposes to “reduce the threats posed
            by climate change by reducing GHG emissions” through cost-effective voluntary
            programs (like Natural Gas STAR). Natural Gas STAR representatives told us they
            have limited options to address methane leaks in the distribution sector because of
            the financial and policy barriers.

            According to the EPA’s Strategic Plan, voluntary programs play a key role in
            reducing GHG emissions. However, the EPA’s Strategic Plan does not contain
            strategic measures or performance goals for reducing methane from leaking
            pipelines. Such measures and goals are a critical first step in providing a framework
            for accountability, results and monitoring of voluntary program effectiveness.

            Natural Gas STAR representatives told us PUCs could play a key role in reducing
            methane emissions from the distribution sector. They said the Natural Gas STAR
            program could work with PUCs in developing a new financial model. A financial
            model that alters the current incentive structure of LDCs to proactively repair more
            leaks should help the EPA’s voluntary programs achieve results.

Conclusions
            The EPA does not currently regulate methane emissions from distribution
            pipelines, and the agency’s voluntary efforts have achieved limited reductions from
            this sector. In addition to contributing to global climate change, methane leaks from
            distribution pipelines represent more than $192 million in lost natural gas product
            annually, a cost borne by consumers. The 2013 Climate Action Plan and its
            associated 2014 interagency methane strategy provide the foundation for increased
            EPA effort and attention to methane emissions from distribution pipelines. The
            EPA needs to develop a strategy to address financial and policy barriers that hinder
            voluntary emission reductions in the sector. The EPA could maximize its emission
            reductions by focusing on states that have the highest amount of cast iron and
            unprotected steel pipelines and do not have initiatives to replace these pipelines.
            Additionally, establishing transparent goals and measures for the agency’s
            voluntary program will aid future determinations about the need to regulate
            methane emissions from distribution pipelines.

Recommendations
            We recommend that the Assistant Administrator for Air and Radiation:

               1. Address methane emissions from the natural gas distribution sector as part
                  of the agency’s efforts to carry out the 2013 Climate Action Plan and
                  associated 2014 interagency methane strategy. Specifically, as part of the
                  interagency methane strategy, the EPA should work with the Department



14-P-0324                                                                                    14
                   of Transportation’s PHMSA to address methane leaks from a safety and
                   environmental standpoint.

               2. Develop and implement a strategy to address the financial and policy
                  barriers to repairing methane leaks from distribution pipelines. This
                  strategy should include partnering with state PUCs to overcome barriers,
                  and consider regional/state pipeline infrastructure and policy variations.

               3. Establish annual performance goals for reducing methane emissions from
                  distribution pipelines through the EPA’s voluntary programs, such as
                  Natural Gas STAR, and report annually in the EPA’s Annual Performance
                  Report the agency’s progress in meeting these goals.

               4. Assess annually whether the above annual performance goals are being
                  met and, if not, determine whether changes or modifications in voluntary
                  programs and other options available to the EPA are needed, including
                  whether regulating methane emissions from the distribution sector would
                  be appropriate under the CAA.

Agency Comments and OIG Evaluation
            The agency agreed with recommendations 1 and 2 and provided acceptable planned
            corrective actions and completion dates that meet the intent of these
            recommendations. For recommendation 1, the agency plans to enhance its
            collaboration with PHMSA to reduce leaks from the distribution sector through
            implementation of the 2014 interagency methane strategy. For recommendation 2,
            the agency plans to collaborate with the Environmental Council of the States to
            identify opportunities to reduce methane emissions from the distribution sector.
            This includes participating in the Environmental Council of the States’ Shale Gas
            Council, through which the EPA will engage states in discussions about methane
            emission reductions. OAR also plans to engage in discussions with the
            Downstream Initiative, which was identified in the 2014 interagency methane
            strategy, and to work with PUCs to focus on ways to overcome obstacles to
            reducing emissions in the distribution sector. Recommendations 1 and 2 are
            resolved and open with corrective actions ongoing.

            The agency partially agreed with recommendation 3. It stated that it already tracks
            voluntary methane emission reductions through the Climate Protection Partnerships
            Annual Report and the U.S. Climate Action Report. However, the measures in
            these reports are for methane emissions as a whole, and are not specific to the
            distribution sector. The agency also stated that it already has an annual performance
            goal for Industrial Sector Programs that tracks and assesses progress through
            voluntary efforts to reduce GHG emissions. However, this measure is not specific
            to the Natural Gas STAR Program nor the distribution sector, and includes GHG
            emissions other than methane. We acknowledge that the EPA provides information
            on methane emissions from the distribution sector on its Natural Gas STAR


14-P-0324                                                                                    15
            website, but these emissions are not tracked over time. Rather, they present overall
            emissions for only 1 year. Thus, none of these measures tracks progress in reducing
            methane emissions from the distribution sector alone. We believe that combining
            distribution sector emissions with emissions from other sectors masks what is
            actually occurring in the distribution sector. Further, given the lack of incentives
            and the unique disincentives in the distribution sector, we believe that a measure
            that tracks progress for the distribution sector alone is warranted. Therefore,
            recommendation 3 is unresolved.

            For recommendation 4, the agency stated that it would continue its efforts to
            evaluate data and assess potential opportunities that could be taken to further
            address emissions from the distribution sector. While we support the agency’s
            efforts to continuously assess opportunities to address these emissions, to meet the
            intent of this recommendation, the EPA needs to develop a performance measure
            for the distribution sector alone that assesses progress in meeting established goals
            for reducing methane emissions. Progress should then be monitored using this
            distribution sector-specific measure. Therefore, recommendation 4 is unresolved.

            Appendix A contains the agency’s response to recommendations 1, 2, 3 and 4 and
            its proposed corrective actions.




14-P-0324                                                                                     16
                                             Chapter 3
        EPA’s Methane Emissions Data for Natural Gas
         Distribution Pipelines Need to Be Improved
                  There is significant uncertainty in the EPA’s current methods for estimating
                  methane emissions for the distribution sector. The EPA estimates methane
                  emissions for the distribution sector using the GHG Inventory and the GHGRP.
                  Emission estimates from both programs are developed using emission factors
                  (EFs) that are based on data from a 1996 EPA and Gas Research Institute (GRI)
                  study. Uncertainties in these EPA/GRI EFs raise questions about the validity of
                  the EFs and, therefore, the accuracy of the distribution sector’s methane emissions
                  reported in the GHG Inventory and GHGRP. Findings from recent research not
                  funded or sponsored by the EPA suggest that methane emissions from distribution
                  pipelines may be higher or lower than EPA’s current estimates. The EPA has not
                  conducted its own studies or sponsored external studies to re-evaluate the
                  distribution pipeline EFs from the EPA/GRI study. Instead, the EPA has been
                  focusing on updating EFs for other sectors of the natural gas industry, such as
                  production and processing. Effective methane reduction strategies may be
                  difficult to develop without better estimates of methane emissions from this
                  sector.

EPA Uses Emission Factors to Estimate Methane Emissions
                  The EPA estimates methane emissions through both the GHG Inventory and the
                  GHGRP. Both of these EPA programs rely on distribution pipeline EFs19 based
                  on data from the 1996 EPA/GRI study to estimate distribution sector methane
                  emissions. The 1996 study calculated leak rates for several different kinds of
                  distribution pipelines (cast iron, unprotected steel, protected steel, plastic and
                  copper). The EPA later used the leak rates from the 1996 study to develop the
                  distribution pipeline EFs it uses in the GHG Inventory and GHGRP.20




19
   The EPA defines EF as a representative value that attempts to relate the quantity of a pollutant released to the
atmosphere with an activity associated with the release of that pollutant. In most cases, these EFs are simply averages
of all available data of acceptable quality and are generally assumed to be representative of long-term averages for all
facilities in the source category (i.e., a population average). For the natural gas distribution sector, EPA/GRI
developed EFs for distribution lines made of unprotected steel, protected steel, plastic, cast iron and copper.
20
   When we refer to EFs in this chapter, we are referring to the distribution pipeline EFs that the EPA developed
based on the 1996 data to estimate emissions for the GHG Inventory and GHGRP.




14-P-0324                                                                                                           17
                 EPA’s GHG Inventory

                 The GHG Inventory is an annual report—with data compiled by EPA staff—that
                 tracks total annual U.S. emissions and removals21 by source, economic sector and
                 GHG going back to 1990. The EPA uses national energy data, data on national
                 agricultural activities and other national statistics to provide a comprehensive
                 “bottom-up” estimate22 of total GHG emissions for all man-made sources in the
                 United States.

                 To estimate methane emissions from distribution pipelines for the GHG
                 Inventory, EPA staff generally use the EFs based on the 1996 EPA/GRI study.
                 The EFs for distribution mains are applied to the miles of pipeline of each type of
                 material used23 (i.e., plastic, cast iron, unprotected steel and protected steel) to
                 generate emission estimates from all mains. The EFs for distribution services are
                 applied to the number of service lines of each type of material used to generate
                 emission estimates from all service lines. Once the EPA has added these totals
                 together for a gross estimate, it subtracts out emission reductions achieved from
                 the Natural Gas STAR program to account for reductions resulting from the
                 program’s voluntary efforts. For 2011, EPA staff estimated methane emissions
                 from natural gas distribution pipelines to be about 14 MMT CO2e.

                 EPA’s GHG Reporting Program

                 Large emission sources and fuel suppliers are required to report their GHG
                 emissions data under EPA’s GHGRP.24 The GHGRP has a reporting threshold of
                 25,000 metric tons of CO2e. Only those LDCs that meet or exceed the threshold
                 must report methane emissions to the EPA. A key difference from the GHG
                 Inventory is that GHGRP data are reported to the EPA by those facilities meeting
                 the threshold limits. Still, the GHGRP requires that LDCs use the EFs that are
                 based on the 1996 EPA/GRI study, multiplied by miles/number of each type of
                 pipeline within their systems. For 2012, GHGRP facilities reported that their
                 distribution pipelines emitted about 12 MMT CO2e.

Validity of EPA’s Emission Factors for Distribution Pipelines Uncertain
                 Our review of the 1996 EPA/GRI study of distribution pipelines found that there
                 was significant uncertainty in the study data due to small sample sizes and widely

21
   Removal refers to the ability to take up, as opposed to emit, GHG emissions. This occurs due to sinks (for
example, trees or crops), which are resources or processes that remove atmospheric GHGs from the air.
22
   A bottom-up estimate is derived by adding together estimates of individual anthropogenic sources. Top-down
approaches, on the other hand, involve atmospheric measurements and the use of meteorological data and statistical
analyses to trace atmospheric concentrations back to individual sources.
23
   The EPA obtains data on miles of pipeline from PHMSA.
24
   Most source categories began reporting yearly GHG data with the 2010 reporting year and these 2010 data were
reported to the EPA by September 2011. Additional source categories began reporting yearly GHG data with the
2011 reporting year and these 2011 data were reported to the EPA by September 2012.




14-P-0324                                                                                                       18
                     varying leak measurements. The 1996 study included only 21 samples from cast
                     iron mains, 20 samples from unprotected steel mains, 17 samples from protected
                     steel mains, and six samples from plastic mains. The sample sizes for distribution
                     service lines were similar, ranging from 24 for protected steel service lines to four
                     for plastic service lines. In addition, the study produced a wide range of
                     measurements, resulting in uncertainty about the true leak rate. For example, the
                     study authors concluded that the average emission factor for cast iron mains was
                     238,736 standard cubic feet (scf) per mile of pipeline per year (scf/mile-year),25
                     with a 90-percent confidence interval of +/-152,059 scf/mile-year. This means
                     there was only 90-percent confidence that the true average emission rate fell
                     within a very large range of values (from 86,677 scf/mile-year to 390,795
                     scf/mile-year).

                     As of 2012, there were more than 32,000 miles of cast iron mains in the United
                     States. Therefore, current emission estimates based on the 1996 EPA/GRI average
                     emission factor for cast iron mains may be much higher or lower than actual
                     emissions.

                     The 1996 EPA/GRI study also reported a surprisingly high leakage rate for plastic
                     mains, the type of pipe generally viewed as the least leak-prone. The study
                     concluded that the average leak rate for plastic mains is 12.45 scf per leak per
                     hour (scf/leak-hour). This rate is significantly higher than the study’s estimate for
                     unprotected steel mains, which are known to corrode and leak over time.
                     According to the study, the relatively high average leakage rate for plastic mains
                     was due to the small sample size (only six samples) and one large data point that
                     skewed the overall average leak rate. The data points for the plastic mains
                     sampled ranged from 0.008 scf/leak-hour to 61 scf/leak-hour, a span of five orders
                     of magnitude. As a result, there is more uncertainty in the EPA/GRI average leak
                     rate for plastic mains than for any other type of distribution pipe.

                     In 2005, in response to comments that the 1996 EPA/GRI emission factor for
                     plastic pipelines was unreasonably high, the EPA researched additional data
                     sources and found a study by the Southern California Gas Company that
                     contained seven leak measurements at plastic pipelines. This data showed a leak
                     rate that was a little more than half of what EPA/GRI had measured for the 1996
                     study. The EPA weight-averaged this data with the 1996 EPA/GRI data for plastic
                     pipelines to improve the original EF. This adjusted EF for plastic pipelines is now
                     used in the GHG Inventory and GHGRP. However, EPA has not adjusted the EFs
                     for cast iron mains, unprotected steel mains or protected steel mains.

                     Recent Emissions Data From the Gas Technology Institute

                     Results of a recent Gas Technology Institute (GTI)26 study indicated that the
                     EPA/GRI EF for plastic mains significantly overestimates emissions. GTI found a

25
     This was the average EF after EPA/GRI adjusted it to account for soil oxidation.
26
     The GTI was formerly the GRI and the Institute of Gas Technology.


14-P-0324                                                                                               19
                 leak rate for plastic mains of 3.72 scf/leak-hour versus EPA/GRI’s average leak
                 rate of 12.45 scf/leak-hour.

                 Table 3 shows a comparison of the 1996 EPA/GRI and 2013 GTI study results. It
                 compares number of samples, estimated leak rate for plastic mains, minimum leak
                 rate measured, maximum leak rate measured, and the 90-percent confidence
                 interval. It demonstrates that the 2013 GTI study design yielded a much smaller
                 range with respect to the 90-percent confidence interval. Thus, the 2013 GTI
                 study was more precise in its estimated leak rate for plastic mains.

                 Table 3: Comparison of study results for plastic mains
                                                      Est. leak                                         90-percent
                                                         rate         Min. value      Max. value        confidence
                                        Samples       (scf/leak-      (scf/leak-      (scf/leak-          interval
                      Study              tested         hour)           hour)           hour)         (scf/leak-hour)
                   1996 EPA/GRI             6           12.45a          0.008            61.0            +/- 19.81
                     2013 GTI              22            3.72           0.600            14.4             +/- 1.41
                 Source: OIG analysis of (1) “Methane Emissions from the Natural Gas Industry, Volume 9 –
                 Underground Pipelines,” EPA and GRI, June 1996; and (2) “Improving Methane Emission Estimates
                 for Natural Gas Distribution Companies, Phase II–PE Pipes,” GTI, November 2013.
                 a This leak rate is from the 1996 EPA/GRI study and does not reflect the EPA’s 2005 adjustment to the

                 plastic pipeline EF. The EPA uses the adjusted leak rate for plastic pipelines in the GHG Inventory and
                 GHGRP.


                 Two Recent External Reports Questioned EPA’s Emissions Data for
                 Distribution Pipelines

                 A 2012 report27 from Cornell University stated that emission estimates based on
                 the 1996 EPA/GRI study are too low. The authors questioned why the 1996
                 EPA/GRI emission factors were based on emissions from facilities run by
                 companies that voluntarily participated, rather than a random sample or
                 comprehensive assessment of actual industry practices. Further, the authors stated
                 that distribution systems in some cities are 80 to 100 years old, yet such systems
                 were not included in the 1996 EPA/GRI assessment.

                 A 2013 report from Gas Safety Incorporated28 raised questions about the
                 usefulness of the EPA’s EFs for distribution pipelines and emission estimates for
                 this sector. In its report, Gas Safety Incorporated noted issues similar to those
                 discussed in the previous section regarding the precision of the EPA/GRI data.
                 The report concluded that:

                          Estimates generated using the EPA/GRI 1996 method have such a
                          wide confidence interval (±65 %) that their general accuracy and
                          usefulness is questionable.

27
   Robert W. Howarth, Renee Santoro, and Anthony Ingraffea, “Venting and leaking of methane from shale gas
development: response to Cathles et al.,” Climatic Change (journal), February 2012.
28
   Bryce F. Payne Jr. and Robert Ackley, “Extended Report on a Preliminary Investigation of Ground-Level
Ambient Methane Levels in Manhattan, New York City, New York,” Gas Safety Incorporated, March 2013.


14-P-0324                                                                                                         20
                    The authors ultimately concluded that existing methane emission estimates, or
                    methods for estimating emissions, have little basis in actual data.

                    Recent Reports Describe a High Level of Uncertainty Regarding
                    Methane Emissions Estimates

                    In its 2011 GHG Inventory report, the EPA stated that there is a lack of data or an
                    incomplete understanding of how emissions are generated for some emissions
                    categories. These factors increase the uncertainty associated with certain estimates
                    presented. In our discussions with EPA staff, they confirmed that methane is one
                    of the emissions categories with relatively high uncertainty.

                    The EPA’s uncertainty range relative to its 2011 national methane source estimate
                    from natural gas systems is from -19 percent on the lower end to +30 percent on
                    the upper end.29 The 2013 GHG Inventory report further states that improving the
                    accuracy of EFs could help reduce uncertainty in the GHG Inventory. It states
                    that:

                            . . . the accuracy of current emission factors applied to [methane]…
                            emissions from stationary and mobile combustion is highly
                            uncertain.

                    A February 2014 report30 on methane emissions across all sectors, including the
                    distribution sector, noted that emission inventories are under-predicting
                    atmospheric methane, in part, because:

                            … measurements for generating emission factors are expensive,
                            which limits sample sizes and representativeness. Many EPA EFs
                            have wide confidence intervals. And there are reasons to suspect
                            sampling bias in EFs, as sampling has occurred at self-selected
                            cooperating facilities.

                     According to the report:

                            Given the cost of direct measurements, emissions inventories will
                            remain useful for tracking trends, highlighting sources with large
                            potential for reductions, and making policy decisions. However,
                            improved inventory validation is crucial to ensure that supplied
                            information is timely and accurate.

                    Similarly, the 2014 interagency methane strategy issued under the 2013
                    Climate Action Plan stated that better methane emissions data collection
                    and measurement would improve the nation’s understanding of methane

29
     The EPA did not produce an uncertainty estimate specifically for the natural gas distribution sector.
30
     Brandt, et. al., “Methane Leaks from North American Natural Gas Systems,” Science (journal), February 2014.


14-P-0324                                                                                                          21
            sources and trends, and enable more effective management of emissions
            reduction activities. The strategy listed the following as a key step to
            improve data quality:

                    Addressing areas of higher uncertainty in bottom-up inventories
                    through additional data collection, direct emission measurement,
                    and research and analysis.

            The strategy specifically calls for an assessment of current methane emissions
            data and states that improvement opportunities exist with current EFs and other
            input data.

EPA Has Not Comprehensively Re-Evaluated Its
Natural Gas Distribution Pipeline Emission Factors
            The EPA has not conducted any direct measurement studies on distribution
            pipeline emissions since the 1996 EPA/GRI study. As described earlier, the EPA
            made an adjustment in 2005 to the plastic pipeline emission factor used in the
            GHG Inventory and GHGRP. However, the EPA has not comprehensively
            evaluated the 1996 EPA/GRI distribution pipeline emission factors. GTI told us
            that the 1996 study methodology is not a practical way to obtain additional data
            since pipelines have to be excavated to obtain leak rates. The EPA has not
            committed resources toward developing a new methodology to estimate
            distribution pipeline leaks. Rather, the EPA has focused on quantifying and
            addressing upstream emissions from the gas industry, such as emissions from
            natural gas production.

            EPA’s Attempt to Sponsor an External Study on Distribution Sector
            Emissions Ended Without Results

            The EPA made one attempt to sponsor an external study to update 1996 EPA/GRI
            distribution sector EFs. In 2008, the EPA awarded a grant of close to $500,000 to
            the University of Texas to update EFs for the following source categories:

                    Production (well clean-ups, completion flaring, well workovers and
                     pipelines leaks).
                    Processing (fugitive emissions from reciprocating and centrifugal
                     compressors).
                    Transmission and storage (fugitive emissions from reciprocating and
                     centrifugal compressors, pneumatic devices, and meter and regulating
                     stations).
                    Distribution (residential customer meters, plastic mains and services).

            However, EPA staff told us that due to limitations related to time and scope, the
            study did not review EFs for the distribution sector. Instead, the study focused on
            emissions from production (gathering/boosting), processing (reciprocating and


14-P-0324                                                                                      22
            centrifugal compressor components), and gas transmission. The study’s
            measurements produced lower EFs than the previous EPA/GRI study for some
            gas system components and higher EFs for other components. The study did not
            provide the EPA with updated emissions information for distribution systems.
            According to EPA staff, the EPA has not sponsored other studies on distribution
            sector emissions.

            EPA’s Involvement in External Studies to Evaluate Distribution
            Pipeline Emission Factors Has Been Limited

            There are recent and ongoing studies whose results could help the EPA validate
            and/or update its EFs for distribution sector leaks. However, EPA staff told us they
            were not involved in developing the studies’ design or protocols. Therefore, the
            agency does not know how useful the studies will be for updating its distribution
            pipeline EFs. Two studies that could be informative for the EPA are:

                  GTI study – GTI is currently conducting a multi-phased project targeting
                   distribution sector emissions. Phase I of this project developed a
                   methodology to update leak rate data and EFs for buried distribution
                   piping. Phase II updated the leak rate for plastic distribution pipe. These
                   results have been shared with EPA staff. Phase III will update the leak rate
                   data and EFs for cast iron and unprotected steel distribution mains.
                   Phase III data collection has commenced and is planned to continue
                   through the first half of 2014.

                  Environmental Defense Fund (EDF) – EDF is partnering with industry
                   and university researchers to study distribution sector leaks. There are
                   three components to this study, including: (1) a top-down study in Boston
                   looking at how much of the atmospheric methane is from distribution;
                   (2) a bottom-up study conducted in multiple cities, measuring leaks from
                   local distribution pipelines; and (3) a study to quantify local distribution
                   leaks and associated leak flux rates using drive-by technology.

            According to EPA staff, the EPA’s involvement in these studies has been limited.
            At the time we conducted our review, EPA staff had just recently received the GTI
            report on plastic distribution pipelines and had not yet evaluated it. In the most
            recent GHG Inventory, EPA mentions the GTI and EDF studies and states that:

                   EPA looks forward to reviewing information and data from these
                   studies as they become available for potential incorporation in the
                   Inventory. For example, EPA anticipates reviewing upcoming data
                   on transmission and storage, and distribution system emissions for
                   potential updates to the 1990–2013 Inventory report.

            According to GTI representatives, updates to the original distribution pipeline EFs
            are warranted to reflect changes in operating, leak detection and mitigation


14-P-0324                                                                                    23
            practices. GTI also stated there was a need to increase the sample size of the data.
            According to GTI, many of these issues are reflected in their current research to
            update the EFs for distribution pipelines.

Conclusions
            The EPA’s existing methane emissions data for distribution pipelines may not be
            valid. Methane emissions from these pipelines may be higher or lower than
            currently estimated by the EPA. This makes the EPA’s assessment and decisions
            regarding the magnitude and relative importance of these emissions difficult. The
            EPA has stated its intent to evaluate the appropriateness of regulating methane,
            and potentially important data on methane emissions are becoming available from
            GTI and EDF. Further, the 2014 interagency methane strategy issued under the
            Climate Action Plan calls for the EPA to assess current methane emissions data
            and the emission factors upon which the data is based. In our view, this
            assessment should include emission factors for distribution pipelines. The EPA
            needs to examine the design of the GTI and EDF studies and evaluate the data to
            determine their usefulness for validating and/or updating its distribution pipeline
            EFs. The EPA should also be more proactive in identifying opportunities to be
            involved in such studies in the future. By participating upfront in the design of
            studies, the EPA increases the likelihood that the study results may be useful to
            the agency in verifying and/or updating its emission factors.

Recommendation
            We recommend that the Assistant Administrator for Air and Radiation:

               5. Review data from existing and ongoing studies (as they become available)
                  to determine whether the data can be used to verify and/or update existing
                  emission factors, and document the rationale for determination of
                  usability. If the data can be used, update emission factors as appropriate.
                  If not, the EPA should proactively identify opportunities to work with the
                  research community to obtain the data needed to update the distribution
                  sector emission factors.

Agency Comments and OIG Evaluation
            The agency agreed that it is important to review data from existing and ongoing
            studies (such as the EDF and GTI studies) as they become available to determine
            if the new information can be used to update existing emission factors. The
            agency views its GHG Inventory annual review process and efforts underway in
            implementing the 2014 interagency methane strategy as opportunities to engage
            with stakeholders in the continued review and evaluation of distribution sector
            studies. However, the agency’s planned corrective actions do not meet the intent
            of recommendation 5. The EPA has not provided a proposed corrective plan to
            document its rationale for not using the data from existing and ongoing studies to


14-P-0324                                                                                     24
            update its distribution sector EFs (if such a decision is reached). Also, EPA has
            not provided a proposed corrective plan for identifying opportunities to work with
            the research community to obtain data should the GTI and EDF study data not be
            adequate for verifying/updating existing distribution sector EFs. Therefore,
            recommendation 5 is unresolved.

            Appendix A contains the agency’s response to recommendation 5 and its
            proposed corrective actions.




14-P-0324                                                                                   25
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                         Subject                            Status1        Action Official             Date      Amount      Amount

     1       14    Address methane emissions from the natural gas             O       Assistant Administrator for    12/31/14
                   distribution sector as part of the agency’s efforts to                 Air and Radiation
                   carry out the 2013 Climate Action Plan and
                   associated 2014 interagency methane strategy.
                   Specifically, as part of the interagency methane
                   strategy, the EPA should work with the Department
                   of Transportation’s PHMSA to address methane
                   leaks from a safety and environmental standpoint.

     2       15    Develop and implement a strategy to address the            O       Assistant Administrator for    9/30/15
                   financial and policy barriers to repairing methane                     Air and Radiation
                   leaks from distribution pipelines. This strategy
                   should include partnering with state PUCs to
                   overcome barriers, and consider regional/state
                   pipeline infrastructure and policy variations.

     3       15    Establish annual performance goals for reducing            U       Assistant Administrator for
                   methane emissions from distribution pipelines                          Air and Radiation
                   through the EPA’s voluntary programs, such as
                   Natural Gas STAR, and report annually in the
                   EPA’s Annual Performance Report the agency’s
                   progress in meeting these goals.

     4       15    Assess annually whether the above annual                   U       Assistant Administrator for
                   performance goals are being met and, if not,                           Air and Radiation
                   determine whether changes or modifications in
                   voluntary programs and other options available to
                   the EPA are needed, including whether regulating
                   methane emissions from the distribution sector
                   would be appropriate under the CAA.

     5       24    Review data from existing and ongoing studies              U       Assistant Administrator for
                   (as they become available) to determine whether                        Air and Radiation
                   the data can be used to verify and/or update
                   existing emission factors, and document the
                   rationale for determination of usability. If the data
                   can be used, update emission factors as
                   appropriate. If not, the EPA should proactively
                   identify opportunities to work with the research
                   community to obtain the data needed to update the
                   distribution sector emission factors.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0324                                                                                                                                          26
                                                                                   Appendix A

                  Agency Response to Draft Report
                                         May 23, 2014

MEMORANDUM

SUBJECT:      Response to Office of Inspector General (OIG) Draft Report No. OPE-FY13-0016
              "Improvements Needed in EPA Efforts to Address Methane Emissions From
              Natural Gas Distribution Pipelines," dated April 22, 2014

FROM:         Janet G. McCabe
              Acting Assistant Administrator

TO:           Carolyn Copper
              Assistant Inspector General
              Office of Inspector General

The EPA's Office of Air and Radiation (OAR) appreciates the opportunity to review and
comment on the OIG's draft evaluation report "Improvements Needed in EPA Efforts to Address
Methane Emissions from Natural Gas Distribution Pipelines" (Project No. OPE-FY13-0016).
We appreciate the OIG's observations on the challenges that exist in evaluating and addressing
methane emissions from natural gas distribution pipelines.

While we acknowledge the inherent challenge in addressing methane emissions from the oil and
gas sector, we also recognize that OAR has made great strides in working across the sector to
reduce methane emissions. Through our programs, we have been able to establish a substantial
understanding of the technical, policy, and economic issues in this sector, and we have achieved
real, tangible methane emissions reductions. We seek always to improve the effectiveness of our
programs, and strive to focus our limited resources on the highest priority actions, in terms of
expanding our knowledge, increasing the availability and quality of data and, most importantly,
reducing emissions that contribute to climate change and are harmful to public health and the
environment. As explained more fully below, several of the OIG's recommendations identify
activities OAR is already taking. Others suggest additional programmatic activities that we may
be able to undertake in the future, as resources and competing priorities permit.

OAR has a robust process of collecting information about methane emissions from the natural
gas sector, including the distribution sector, through our Greenhouse Gas (GHG) Reporting
Program and our GHG Emissions Inventory. Through our work to develop the inventory each
year, we undergo a thorough process of evaluating new data and information, and we outline a
strategy for improving data quality. We have promulgated and begun implementing regulations
for new and modified sources in the natural gas sector through the 2012 New Source
Performance Standards for volatile organic compounds (VOC) emissions, which also reduce
methane emissions as an important co-benefit. Our successful voluntary partnership, the Natural
Gas STAR Program, has worked collaboratively with industry partners in all sectors across the


14-P-0324                                                                                     27
natural gas value chain, including the distribution sector, and has identified numerous cost-
effective best practices for achieving methane reductions. The Gas STAR Program tracks annual
emissions reductions reported by Partners, which is reported in the Office of Atmospheric
Programs: Climate Protection Partnerships Annual Report. The Gas STAR Program has
identified over 50 cost-effective best management practices and technologies to reduce
emissions, and has achieved cumulative program methane emission reductions of about 470
million metric tons of carbon dioxide equivalent since 1990.

Most importantly, earlier this year the White House launched a comprehensive Strategy to
Reduce Methane Emissions under the auspices of the President's Climate Action Plan. That
Strategy includes several important elements related to the oil and gas sector, and calls for
specific actions by the EPA, the Department of Energy (DOE), the Department of Interior (DOl),
and the Department of Transportation (DOT). The Strategy outlines the EPA's work to assess
several potentially significant sources of methane and other emissions from the oil and gas sector
through a series of white papers, which were released for peer review in April 2014. The
Strategy also describes the EPA's plans to bolster its Natural Gas STAR Program through
launching a new component of the Partnership program that elicits more robust industry
commitments while enhancing transparency and accountability. The Strategy highlights a
"Downstream Initiative" that has been developed by industry and environmental groups to
address some of the key technical and regulatory factors in the natural gas distribution sector.
The strategy also describes important and substantive roles for DOE, DOT, and DOl to reduce
emissions from the natural gas sector. The EPA looks forward to working with our sister
agencies in implementing this important White House strategy, which identifies the highest
priority actions that will reduce emissions from this sector in a holistic and strategic manner.

Below are OAR's responses to the OIG's specific recommendations. In the attachment,31 we provide
additional detailed comments, including a number of incorrect or inaccurate statements that had been
identified in earlier discussions between OIG and OAR staff but were not incorporated into the draft
report:
     1. Address methane emissions from the natural gas distribution sector as part of the
        agency's efforts to carry out the 2013 Climate Action Plan and associated methane
        strategy. Specifically, as part of the interagency methane strategy, the EPA should
        work with the Department of Transportation's PHMSA to address methane leaks
        from a safety and environmental standpoint.
        Response: OAR agrees that it is important to collaborate with other organizations to
        address methane leaks from distribution pipelines from both safety and environmental
        perspectives as we already are. Addressing methane emissions from the oil and gas sector
        through interagency collaboration is a key goal of the President's Climate Action Plan:
        Strategy to Reduce Methane Emissions. Through implementation of this strategy, OAR
        will continue its efforts to enhance collaboration with the Pipeline and Hazardous
        Materials Safety Administration (PHMSA) to discuss best practices for reducing leaks in
        the distribution sector.


31
  OAR also provided detailed comments in an attachment to its response to the draft report. We made revisions to
our report to address OAR’s detailed comments where appropriate.


14-P-0324                                                                                                      28
      Planned Completion Date: Fiscal Year (FY) 2015, Quarter (Q) 1

   2. Develop and implement a strategy to address the financial and policy barriers to
      repairing methane leaks from distribution pipelines. This strategy should include
      partnering with state PUCs to overcome barriers, and consider regional/state
      pipeline infrastructure and policy variations.
      Response: OAR agrees that addressing policy and financial barriers is important to
      promote voluntary methane reductions from this sector. OAR will continue and enhance
      our current collaboration with the Environmental Council of the States (ECOS), and with
      natural gas downstream-focused initiatives to identify opportunities to reduce methane
      from the distribution sector. For example, OAR is a Partner in the ECOS Shale Gas
      Caucus and will use that forum to engage with broader discussions with states about
      methane reductions from the natural gas sector. In addition, OAR is engaging in
      discussions with the Downstream Initiative, which was identified in the President's
      Strategy to Reduce Methane Emissions, and is working directly with public utility
      commissions to focus on ways to overcome obstacles in improving the distribution
      sector.

      Planned Completion Date: FY15, Q4

   3. Establish annual performance goals for reducing methane emissions from
      distribution pipelines through the EPA's voluntary programs, such as Natural Gas
      STAR, and report annually in the EPA's Annual Performance Report the agency's
      progress in meeting these goals.
      Response: OAR is in partial agreement with this recommendation. Based on discussions
      with OIG staff, it is our understanding that the intent of Recommendation 3 is to establish
      goals for transparently tracking progress in voluntarily reducing methane emissions from
      distribution pipelines.

      OAR agrees with the importance of transparently evaluating progress through the
      voluntary programs, and we believe that our current tracking procedures are the most
      appropriate mechanisms to do so. Therefore, rather than creating a new APG, OAR
      proposes to continue to evaluate new data, ensure transparency, and track progress in
      reducing emissions from natural gas pipelines using our current mechanisms.

      Planned Completion Date: FY14, Q4

      To elaborate further on this topic, OAR already has established procedures in place
      through the Office of Atmospheric Programs Climate Protection Partnerships Annual
      Report and the U.S. Climate Action Report to track and assess progress through
      voluntary efforts to reduce GHG emissions. Furthermore, one of the 286 annual
      performance goals (APG) that the EPA currently reports on in the EPA's Annual
      Performance Report is an APG for the Industrial Sector Programs, which includes the
      Natural Gas STAR Program voluntary methane reductions as one component.



14-P-0324                                                                                     29
       The EPA, per direction for the Director of the Office of Budget and the Director of the
       Office of Planning, Analysis, and Accountability, is working to reduce the number of
       individually tracked performance goals and we believe that the current reporting in the
       APG is consistent with the substantive intent of the recommendation.

   4. Assess annually whether the above annual performance goals are being met and, if
      not, determine whether changes or modification in voluntary programs and other
      options available to the EPA are needed, including whether regulating methane
      emissions from the distribution sector would be appropriate under the CAA.
       Response: OAR is in partial agreement with this recommendation. OAR agrees that it is
       important to evaluate all relevant emerging information to assess potential future actions,
       including changes or modifications in voluntary programs or other options available to
       the EPA. However, the Administrator, through OAR, has the authority and responsibility
       to determine whether regulatory action is appropriate, independent of the progress of
       voluntary programs, and in consideration of many factors, including other program
       priorities and available resources. OAR will continue the efforts already in place to
       evaluate new data, including from the GHG Reporting Program and outside studies. OAR
       will also continue to assess information gleaned through collaboration with other Federal
       agencies, states, and other entities under the auspices of the Interagency Strategy to
       Reduce Methane Emissions. Based on these collective inputs, in keeping with its
       programmatic function, OAR will assess potential opportunities or actions that could be
       taken to further address emissions from the distribution sector.

       Planned Completion Date: FY 16, Q2

   5. Review data from existing and ongoing studies (as they become available) to
      determine whether the data can be used to verify and/or update existing emission
      factors, and document the rationale for determination of usability. If the data can be
      used, updated emission factors as appropriate. If not, the EPA should proactively
      identify opportunities to work with the research community to obtain the data
      needed to update the distribution sector emission factors. ·
       Response: OAR agrees that it is important to review data from existing and ongoing
       studies to determine if new information can be used to update existing emission factors,
       and indeed is already doing so. As already planned through the GHG Inventory annual
       review process and efforts underway in implementing the Interagency Methane Strategy,
       OAR continues to engage with stakeholders as appropriate in continued review of
       distribution sector studies and ongoing evaluation of data for potential updates to GHG
       emission factors and estimates.

       Completion Date: FY15, Q3

If you have any questions regarding this response, please contact Paul Gunning, Director,
Climate Change Division in the Office of Atmospheric Programs at (202) 343-9736.

Attachment


14-P-0324                                                                                        30
cc:   Betsy Shaw
      Sarah Dunham
      Paul Gunning
      Pamela Franklin
      Suzanne Waltzer
      Suzanne Kocchi
      Steve Page
      Bruce Moore
      David Cozzie
      Chris Frantz
      Amy Branning
      Maureen Hingeley
      Rick Beusse
      Erica Hauck




14-P-0324                31
                                                                                  Appendix B

                                     Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Air and Radiation
Associate Assistant Administrator and Senior Counsel for Air and Radiation
Director, Office of Air Quality Planning and Standards, Office of Air and Radiation
Director, Office of Atmospheric Programs, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Air Quality Planning and Standards,
       Office of Air and Radiation




14-P-0324                                                                                 32
